           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   RESTITUTION OF MISUSED FUNDS
      TO BENEFICIARIES UNDER
         PUBLIC LAW 108-203

    August 2006   A-09-05-15139




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   August 17, 2006                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Restitution of Misused Funds to Beneficiaries Under Public Law 108-203
        (A-09-05-15139)


        OBJECTIVE
        Our objective was to assess the Social Security Administration’s (SSA) implementation
        of section 101 of the Social Security Protection Act of 2004 (Act).

        BACKGROUND
        Public Law 108-203, the Act, was signed into law on March 2, 2004. Section 101 of the
        Act requires that SSA reissue benefits to Title II and XVI beneficiaries when benefits
        were misused by organizational representative payees or individual payees serving
        15 or more beneficiaries. This provision applied to misuse decisions made on or after
        January 1, 1995.1

        Before March 2, 2004, SSA repaid beneficiaries for the amount of misused funds
        only if SSA’s failure to investigate or monitor a representative payee resulted in the
        misuse of benefits.2

        In June 2004, SSA identified all representative payees and beneficiaries who met the
        requirements of section 101 from its Representative Payee System (RPS). Using this
        information, SSA established the Misuse Restitution Control System (MRCS) database
        to track and manage the completion of these cases. In its Representative Payment
        Status Report for March 2005, SSA reported it had completed its review of misuse
        cases subject to repayment under the Act.

        According to the MRCS database, representative payees misused $2.8 million that
        belonged to 2,685 Title II and XVI beneficiaries from January 1995 through June 2004.
        In total, SSA or its representative payees repaid $2.5 million to 2,127 beneficiaries.

        1
            Public Law No. 108-203 § 101(d).
        2
            SSA, POMS, GN 00604.050C.
Page 2 – The Commissioner

This included $1.1 million before Public Law 108-203 was enacted and $1.4 million after
its enactment. However, about $331,000 was not repaid to 360 beneficiaries because
SSA could not locate them or they were deceased, incarcerated, or in nonpay status.
The remaining 198 beneficiaries did not require repayment because SSA concluded
that no misuse had occurred.

RESULTS OF REVIEW
In general, our audit disclosed that SSA adequately implemented section 101 of Public
Law 108-203. However, we identified the following deficiencies:

•   63 beneficiaries had $41,075 in funds misused by 5 representative payees but
    were not fully paid;3

•   244 additional beneficiaries were not repaid at least $118,949 in funds misused by
    3 representative payees;

•   247 beneficiaries were deceased, but SSA did not attempt to reissue $247,289 in
    misused funds to their survivors or estates; and

•   12 beneficiaries had $5,826 of overpayments that could have been collected by
    offsetting the amount of misused funds reissued to them.

Payment of Prior Misuse Cases Identified by SSA

Based on a random sample of 100 beneficiaries from the MRCS database, we found
that SSA generally repaid those individuals whose funds were misused. However, our
review disclosed that eight beneficiaries were not paid or fully repaid the amount of
funds misused by five representative payees. These beneficiaries included (1) four
individuals who were not repaid any funds and (2) four individuals who were not repaid
the full amount of funds misused.

The four beneficiaries who were not repaid any funds had a total of $2,905 misused by
their representative payees. In one case, SSA did not repay the beneficiary until after
we requested its misuse determination in June 2005. In another case, SSA believed it
had repaid the beneficiary as required. In the remaining two cases, SSA had issued the
checks, but they were returned to the Treasury. During our review, we determined that
SSA had completed final actions to repay these beneficiaries.




3
  This includes 4 beneficiaries in our sample who were not paid $2,905 and 59 beneficiaries who were
not repaid $38,170. The 59 beneficiaries had the same representative payee, of which 4 were in
our sample.
Page 3 – The Commissioner

For another four beneficiaries, we found that SSA had not repaid the full amount
of funds misused by a fee-for-service representative payee in Seattle, Washington.
In total, the representative payee misused $55,994 in benefits received on behalf of
59 beneficiaries. The executive director of the representative payee pled guilty to
misappropriating $17,824 of Title II and XVI benefits. SSA repaid the court-ordered
restitution of $17,824 to these individuals before Public Law 108-203 was enacted.
However, since SSA determined it was negligent in its oversight of the representative
payee, it should have repaid the full amount of misused funds. As a result, these
beneficiaries were due an additional $38,170.

SSA’s policies, before the enactment of Public Law 108-203, required that it repay the
amount of misused benefits to beneficiaries when its failure to investigate or monitor
a representative payee resulted in misuse.4 We found that SSA did not record the full
amount of misused funds in RPS. This may have contributed to these individuals not
being repaid in full. However, SSA should have repaid the entire $55,994 to these
beneficiaries, notwithstanding the enactment of Public Law 108-203, because it was
negligent in its oversight of the representative payee. SSA agreed to initiate action to
repay these beneficiaries.

Additional Misuse Cases Not Repaid by SSA

During our review, we determined that SSA did not reissue at least $118,949 to
244 beneficiaries who had funds misused by 3 representative payees.

•    Organizational Representative Payee - SSA did not repay $82,173 to
     55 beneficiaries whose funds were misused by an organizational representative
     payee in Tacoma, Washington. Although only 2 misuse cases were initially
     recorded in RPS and MRCS, SSA entered the remaining 53 misuse cases in
     RPS after it discovered they were excluded. However, SSA did not complete its
     processing of these misuse cases to reissue the $82,173 to the 55 beneficiaries.
     SSA agreed to initiate action to repay these beneficiaries.

•    Organizational Representative Payee - The owner of an organizational
     representative payee was convicted of misappropriating $274,001 in Social
     Security benefits from 295 individuals in Phoenix, Arizona, and Denver, Colorado.
     However, SSA only repaid the beneficiaries at the Phoenix location. SSA did not
     repay the $36,776 of misused funds to the 47 beneficiaries at the Denver location
     because the misuse amounts were not included in RPS. SSA agreed to initiate
     action to repay these beneficiaries.




4
    SSA, POMS, GN 00604.050C.
Page 4 – The Commissioner

•    Individual Representative Payee - During its review of an individual representative
     payee in New York, New York, SSA determined the representative payee had
     misused $3,505 of Social Security benefits for 13 of the 14 beneficiaries in its
     sample. Specifically, SSA found the representative payee had collected a fee from
     these beneficiaries without prior approval from SSA. These amounts were included
     in the MRCS database for repayment. However, SSA did not review the remaining
     142 beneficiaries’ records to determine whether inappropriate fees had been
     charged.

Payments to Survivors or Estates of Deceased Beneficiaries

SSA’s instructions for processing the repayment of misused funds of deceased
beneficiaries are inconsistent with its general policies for returning misused and
conserved funds to the survivors or estates of these individuals. SSA instructed
its field offices not to reissue funds for deceased beneficiaries.5 As a result, SSA
did not attempt to reissue $247,289 of misused funds to the survivors or estates
of 247 deceased beneficiaries. Our review disclosed that 25 of these deceased
beneficiaries had family members in current pay status on SSA’s payment records.

Before Public Law 108-203, SSA only repaid misused benefits if the misuse was caused
by SSA’s negligence in its actions when appointing or monitoring a representative
payee. However, for deceased beneficiaries, SSA would reissue misused funds only
after the representative payee made repayment. SSA in its implementation of Public
Law 108-203 instructed its field offices to follow this same policy for the repayment of
misused funds for deceased beneficiaries.6

Our review disclosed that SSA’s instructions for processing misused benefits for
deceased beneficiaries is contrary to its policies for repaying (1) misused and
conserved funds for deceased Title II beneficiaries and (2) conserved funds for
deceased Title XVI recipients. For deceased Title II beneficiaries, misused or
conserved funds may be paid to the legal representative of the beneficiary’s estate.7
For deceased Title XVI recipients, conserved funds that are held by a representative
payee or returned to SSA belong to the estates of these beneficiaries.8 Since
Public Law 108-203 does not specifically address misused funds for deceased
beneficiaries, SSA should use its existing policies for guidance.




5
 SSA, AM-04167, October 29, 2004, instructs field offices to follow the guidelines in POMS,
GN 00604.060D.2.a (EXCEPTION) for any deceased beneficiaries in the MRCS database.
6
    SSA, POMS, GN 00604.060.
7
    SSA, POMS, GN 02301.001B.2.d.
8
    SSA, POMS, GN 00603.100B.2 and SI 02101.001A.2.
Page 5 – The Commissioner

Recovery of Overpayments from Beneficiaries

SSA’s policies on misused funds restricted the collection of overpayments from the
funds reissued to beneficiaries. According to SSA staff, only underpayments may be
used to recover overpayments. In addition, SSA does not consider misused funds to be
underpayments. As a result, SSA did not attempt to recover existing overpayments
from any reissued misused funds. Based on a random sample of 100 beneficiaries from
the MRCS database, we found 12 beneficiaries with $5,826 of overpayments that could
have been collected by offsetting the amount of misused funds reissued to them.

SSA has the authority to recover overpayments from amounts due a beneficiary.9
During our review, we discussed this with SSA’s Office of Disability and Income Security
Programs. SSA staff stated they would initiate action to revise both Title II and XVI
policies to allow the recovery of overpayments from any reissued misused funds.

CONCLUSION AND RECOMMENDATIONS
In general, our audit disclosed that SSA adequately implemented section 101 of Public
Law 108-203. However, SSA did not reissue $41,075 to 63 beneficiaries who had funds
misused by 5 representative payees. In addition, we identified 244 beneficiaries who
were not repaid at least $118,949. We also found that SSA’s policies for reissuing
misused funds were not always consistent with current laws and regulations or SSA’s
policies for the disposition of misused and conserved funds.

We recommend that SSA:

1. Reissue the remaining $38,170 owed to 59 beneficiaries who had funds misused
   by a fee-for-service representative payee.

2. Repay $118,949 to 102 beneficiaries who had funds misused by 2 organizational
   representative payees.

3. Review the accounting records for 142 beneficiaries of an individual representative
   payee to calculate and repay the amount of misused funds to these individuals.

4. Repay $247,289 of misused funds to the survivors or estates of 247 deceased
   beneficiaries in accordance with existing SSA policies for repaying misused and
   conserved funds.




9
  Social Security Act §§ 204(a) and 1631(b), 42 U.S.C. §§ 404(a) and 1383(b) and 20 C.F.R. §§ 404.502
and 416.570.
Page 6 – The Commissioner

5. Revise its representative payee policies for reissuing misused funds for deceased
   beneficiaries to ensure consistency with SSA’s policies for repaying misused and
   conserved funds to the survivors and estates of these individuals.

6. Revise its representative payee policies to allow the recovery of overpayments from
   any reissued funds.

AGENCY COMMENTS
SSA agreed with Recommendations 1 through 3 and 6. SSA disagreed with
Recommendations 4 and 5 stating its instructions for processing the repayment of
misused funds of deceased beneficiaries were consistent with its general policies for
returning misused and conserved funds to the survivors or estates of these individuals.
See Appendix C for the full text of SSA’s comments.

OIG RESPONSE
We believe our recommendations to pay misused funds to the survivors or estates
of deceased beneficiaries are appropriate. SSA's policy is to repay misused funds to
survivors or estates only if the representative payee has already repaid the misused
funds to SSA. One of the benefits of the Act was that it eliminated any contingency
for repayment of misused funds based upon the actions of representative payees. The
policy does not consider the increased financial burden imposed on family members
who may have provided the beneficiary financial assistance necessitated by the
representative payee’s misuse of SSA benefits.




                                               S
                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                  Appendix A

Acronyms
Act      Social Security Protection Act of 2004
C.F.R.   Code of Federal Regulations
MRCS     Misuse Restitution Control System
POMS     Program Operations Manual System
RPS      Representative Payee System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                     Appendix B

Scope and Methodology
We obtained a copy of the Social Security Administration’s (SSA) Misuse Restitution
Control System (MRCS) database as of June 3, 2005. Our population consisted of
2,685 Title II and XVI beneficiaries from January 1995 through June 2004. We refined
our population to exclude (1) 360 beneficiaries who could not be located or were
deceased, incarcerated, or in nonpay status and (2) 198 beneficiaries who did not
require repayment because misuse had not occurred. From the remaining population
of 2,127 beneficiaries, we selected a random sample of 100 beneficiaries for review.
For each sample item, we requested the misuse determination and supporting
documentation for the amount of funds misused.

To accomplish our objective, we:

•   Reviewed Public Law 108-203, the Social Security Protection Act of 2004.

•   Reviewed the applicable sections of the Social Security Act, Code of Federal
    Regulations, and SSA’s Program Operations Manual System.

•   Reviewed each sample item to determine whether (1) the representative payee
    and beneficiary met the requirements of Public Law 108-203, (2) SSA or the
    representative payee reissued the total amount misused to the beneficiary, and
    (3) the beneficiary had an overpayment on the date in which the reissued funds
    were disbursed.

•   Interviewed SSA employees from the Western Program Service Center and
    the Offices of Disability and Income Security Programs and Applications and
    Supplemental Security Income Systems.

We determined the computer-processed data from the MRCS database were
sufficiently reliable for our intended use. We conducted interviews with SSA employees
to evaluate the reasonableness of the methodology used to extract this information from
SSA’s Representative Payee System. However, we did not conduct tests to determine
the completeness and accuracy of the data.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
May 2005 and March 2006. The entity audited was the Office of Income Security
Programs under the Deputy Commissioner for Disability and Income Security Programs.
We conducted our audit in accordance with generally accepted government auditing
standards.
                  Appendix C
Agency Comments
                                       SOCIAL SECURITY
MEMORANDUM


Date:      August 4, 2006                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Restitution of Misused Funds to
           Beneficiaries Under Public Law 108-203" (A-09-05-15139)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT
REPORT, “RESTITUTION OF MISUSED FUNDS TO BENEFICIARIES UNDER
PUBLIC LAW 108-203” (A-09-05-15139)

Thank you for the opportunity to review and comment on the draft report. We appreciate
OIG conducting this audit and we were pleased with the overall finding of the draft report
which indicates that, in general, SSA adequately implemented Section 101 of Public
Law 108-203, the Social Security Protection Act of 2004 (SSPA).

Recommendation 1

SSA should reissue the remaining $38,170 owed to 59 beneficiaries who had funds misused
by a fee-for-service representative payee (Rep Payee).

Comment

We agree. We will have the servicing field office (FO) process these cases. As with all
of the following recommendations to reissue money, we have requested a listing of the
cases and will forward the listing to the servicing FO to be worked.

Recommendation 2

SSA should repay $118,949 to 102 beneficiaries who had funds misused by
2 organizational Rep Payees.

Comment

We agree. We will have the servicing FO process these cases.

Recommendation 3

SSA should review the accounting records for 142 beneficiaries of an individual Rep
Payee to calculate and repay the amount of misused funds to these individuals.

Comment

We agree. We will have the servicing FO process these cases.

Recommendation 4

SSA should repay $247,289 of misused funds to the survivors or estates of 247 deceased
beneficiaries in accordance with existing SSA policies for repaying misused and
conserved funds.




                                               C-2
Comment

We disagree. The Agency’s instructions for processing the repayment of misused funds
of deceased beneficiaries are consistent with its general policies for returning misused
and conserved funds to the survivors or estates of these individuals. See page 4 of the
report, under “Payments to Survivors or Estates of Deceased Beneficiaries.” We believe
that there is a misunderstanding on OIG’s part regarding the policies in the two Program
Operations Manual Systems (POMS) sections. The draft report cites POMS GN
02301.001B.2.d (NOTE) which states in part "…if the beneficiary dies before
recertification of conserved or misused funds, the money, can be paid only to the legal
representative of the beneficiary's estate. See POMS GN 00603.100B.2." This procedure
refers to conserved funds that have been returned, or misused funds that have been repaid
to the Agency, and how to treat the returned/repaid funds.

The report acknowledged that the Agency’s policy concerning misuse cases involving
deceased beneficiaries is based on procedures in place before the SSPA was enacted and
that those procedures provided the basis for our actions in these cases after passage of the
SSPA. To be specific, the instruction regarding these cases after passage of the SSPA
(AM-04167) was based on the Agency’s policy of not paying restitution under the
pre-existing (negligence-based) restitution provisions in Sections 205(j)(5), 807(i), and
1631(a)(2)(E) of the Social Security Act to deceased beneficiaries. This policy for the
negligence-based restitution provisions had been in effect for over 10 years before
Section 101 of the SSPA was enacted. When it implemented the restitution provision in
Section 101 of the SSPA, the Agency kept a consistent policy on restitution for deceased
beneficiaries. Section 101 of the SSPA provided no basis for a different policy.

Additionally, the negligence-based restitution provisions remain in effect. By keeping a
consistent policy, the Agency avoided having one policy for deceased beneficiaries under
the negligence-based restitution provisions and a different policy for deceased
beneficiaries under the restitution provisions of Section 101 of the SSPA. The Agency’s
pre-existing policy is referenced at POMS GN 00604.060D.2.a. It provides that if the
beneficiary is deceased “…do not make duplicate payment and create an unnecessary
overpayment.” When SSA makes repayment of benefits which were previously misused,
in effect we are making a duplicate payment which creates an overpayment, and this
procedure is intended to prevent this in cases where the beneficiary is deceased. In
implementing the retroactive misuse repayment provision of Section 101 of that
legislation, we instructed the FO staff to follow SSA’s longstanding guideline, and not
make repayment if the beneficiary was deceased. We believe that our actions in these
cases were consistent with existing SSA policies.

Recommendation 5

SSA should revise its Rep Payee policies for reissuing misused funds for deceased
beneficiaries to ensure consistency with SSA’s policies for repaying misused and
conserved funds to the survivors and estates of these individuals.




                                                C-3
Comment

We disagree. We do not believe the Agency's instructions regarding restitution of
misused benefits for deceased beneficiaries requires revision for the reasons stated above
in Recommendation 4.

Recommendation 6

SSA should revise its Rep Payee policies to allow the recovery of overpayments from any
reissued funds.

Comment

We agree. We concur with this recommendation and on June 23, 2006, made the change
to POMS GN 02301.001B.2.d to allow for the recovery of overpayments from any
reissued funds.




                                               C-4
                                                                      Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments
In addition to those named above:

   Jim Sippel, Senior Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-05-15139.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
